                                                         U.S. Department of Justice


                                                         United States Attorney
                                                         District of Maryland

                                                                                                      Rod J.
Rosenstein                                               36 S. Charles Street                       410-209-4800
United States Attorney                                   Fourth Floor                     TTY/TDD:410-962-4462
                                                         Baltimore, Maryland 21201-2692             410-209-4885
Vickie E. LeDuc                                                                                 FAX 410-962-3091
Public Information Officer                                                                Vickie.LeDuc@usdoj.gov


October 16, 2008
FOR IMMEDIATE RELEASE
http://www.usdoj.gov/usao/md                             CONTACT AUSA VICKIE E. LEDUC or
                                                         MARCIA MURPHY at (410) 209-4885

BALTIMORE MAN PLEADS GUILTY IN SCHEME TO STEAL TREASURY CHECKS
          FROM THE MAIL AND CASH THEM USING FALSE ID

                         Conspirators Cashed Over $100,000 in Stolen Treasury Checks

       Baltimore, Maryland - Maurice Whitfield, a/k/a “David Johnson,” age 34, of Baltimore,
pleaded guilty today to conspiracy to commit mail fraud, forged endorsement of a Treasury
check and aggravated identity theft in connection with a scheme to steal treasury checks from the
mail and cash the checks using false identity documents, announced United States Attorney for
the District of Maryland Rod J. Rosenstein.

        According to his guilty plea, beginning in May, 2006 and continuing until May, 2007,
Whitfield was involved with a number of other individuals in a scheme to take United States
Treasury checks from the mail and, using fraudulent identification documents, cash those checks
at local check cashing establishments by posing as the intended recipient of the check. As his
part of the scheme, Whitfield cashed stolen Treasury checks using fake Maryland Drivers
Licenses bearing his photograph and the names and addresses of the intended recipients of the
stolen Treasury checks. Whitfield was given the stolen Treasury checks by a co-conspirator,
received a percentage of the money he obtained by cashing them and gave the rest of the money
to the co-conspirator.

       While part of the scheme, Whitfield personally cashed five stolen Treasury checks and
over the course of the scheme Whitfield and the other members of the scheme cashed over
$100,000 in stolen United States Treasury checks.

         Whitfield faces a maximum sentence of 20 years in prison and a fine of $250,000 for
conspiracy to commit mail fraud; 10 years in prison and a fine of $250,000 for forging
endorsements on treasury checks; and a mandatory two years in prison for aggravated identity
theft, in addition to any other sentence imposed. U.S. District Judge Catherine C. Blake has
scheduled sentencing for January 23, 2009 at 9:15 a.m.

       United States Attorney Rod J. Rosenstein thanked the U.S. Postal Inspection Service; the
U.S. Postal Service, Office of Inspector General; the U.S. Secret Service; the Department of
Transportation - Office of Inspector General; and the U.S. Department of the Treasury, Office of
Inspector General for their investigative work. Mr. Rosenstein commended Assistant United
States Attorneys Tamera L. Fine and Emily Glatfelter, who are prosecuting the case.
